C3>

*

United States Court of Appeals
for the U.S. Supreme Court
Robert L. Stabnow,
Petitioner,

District Court File No. 19-cv-1539 (PAM/TNL)
Eighth Circuit Appeal File No. 19-3453

vs.

U.S. Supreme Court Appeal File No.

Jodi Harpstead; DHS
Commissioners Office,
Respondent.

Petition of Certiorari to the U.S. Supreme Court and Notice of Appeal of Order
Denying Certificate of Appealability and Dismissal of Appeal for writ of Habeas
Corpus Review

FILED
APR 0 3 2020
OF THE clerk
SUPREME COURT. U.S.

office

Table of Contents
Heading of section

Page

Table of Contents

2-3

Table of Authorities

4-5

Introduction

6

Notice of Appeal

6

Jurisdiction

6

Venue

6

Background

6-7

Issues and Questions on Appeal

7-8

Facts

8-9

Summary of Arguments

10

A. Mr. Stabnow Did not fail to Exhaust his State Court Remedies where
no Remedies Exist.

10-12

B. Mr. Stabnow is Entitled to Habeas Relief as he has Been Under
Continued Punishment for a Two Year Prison Sentence Since 2007 That
has Been Fully Served Because The MSOP is a Prison and not a Mental
Health Institution.

12-13

C. Did The District Court err in not Reviewing Mr. Stabnow’s Evidence
That the MSOP is in Fact a Minnesota Prison That Operates Under Color
of Civil Commitment?

13-14

D. Did The District Court Err by not Following the Precedent Outlined
in the Eighth Circuit Court or the Supreme Court of the United States
surrounding Habeas Corpus Review.

14-16

E. Is The State of Minnesota Allowed to Change Legislation when
Someone gets out of MSOP to Counter well Established Case Law.

16-17

2

F. This Court Should Hear the Appeal and Grant a Certificate of
Appealability and Certiorari.

17-20

Conclusion

20

Decision and opinion of the Minnesota District Court Printed from
Lexis

Appendix 1

Decision of the Eighth Circuit Court Separate Document

Appendix 2

3

Table of Authorities
Page

Statutes:
Title 28 U.S.C. §1254

6

Title 28 U.S.C. §1253

6

Title 28 U.S.C.S. §2241

6

Title 28 U.S.C.S. §2254

6

Title 28 U.S.C.S. §2403 (b)
20

Title 28 U.S.C. § 1746
State Court Cases:
In Re Fugelseth 907 N.W.2d 248, 253 (Minn. App. 2018)
Call v. Gomez, 535 N.W.2d 312, 319 (Minn. 1995)

16
8&9

Federal Court Cases
Weaver v. Graham, 450 U.S. 24, 29, 67 L. Ed. 2d 17, 101 S. Ct. 960
(1981)

19

Selingv. Young, 531 U.S. 250, 265, 121 S. Ct 727, 148 L. Ed. 2d 734
(2001)

19

Medallic Art Co. vNovus Mktg., Inc. 1999 U.S. Dist. LEXIS 12605;
Copy L Rep (CCH) P27,948Copy. L. Rep. (CCH) P27,948 99 Civ.
502 (JSM) (US District court of the Second Circuit)

17

Baxstrom v. Herold 383 US 107, 15 L Ed 2d 620, 86 S Ct 760

14

Kansas v. Hendricks 521 US 346, 138 L Ed 2d 501, 117 S Ct 2072

13 & 15

Youngberg v. Romeo, 457 U.S. 307,321-22, 102S. Ct. 2452,73 L. ed.
2d 28 (1982)

12 & 18

Wilwording v. Swenson 30 L Ed 2d 418, 404 US 249 (Head Notes)

4

11

Chitwood v. Dowd 889 F.2d 781; 1989 (8,h Cir)

11

Granberry v. Greer, 481 U.S. 129, 131, 95 L. Ed. 2d 119, 107 S. Ct.
1671 (1987)

10

5

I.

Introduction

1. Robert L. Stabnow is a civil detainee at the Minnesota Sex Offender Program
(MSOP) and is seeking Certiorari to the Supreme Court of the United States on
direct appeal from a Judgment entered by both the District Court of Minnesota
and the Eighth Circuit Court of Appeals. This case involves a constitutional
challenge to a state statute and Pursuant to The Rules of this Court Title 28
U.S.C.S. §2403 (b) does apply and the attorney general has been served.
II.

Notice of Appeal

2. Mr. Stabnow by service of this petition hereby notifies of his intentions to
appeal to the United States Supreme Court through the writ of certiorari
III.

Jurisdiction

3. This court has Jurisdiction as Mr. Stabnow has appealed to the Eighth Circuit
Court of Appeals pursuant to Title 28 U.S.C. § 1254

IV.

Venue

4. This court has venue as Mr. Stabnow has appealed to the Eighth Circuit Court
of Appeals pursuant to Title 28 U.S.C. §1253
V.

Background

5. Mr. Robert L. Stabnow filed a petition pursuant to Title 28 U.S.C.S. §2241 and
§2254 on June 13 2019 in the federal district court for the district of Minnesota
after a change in the discharge criteria was made retroactive to his then active

6

petition for relief from his commitment pursuant to Minnesota Statute 253D’s
previous Discharge standard.

After the change was put into effect Mr.

Stabnow withdrew his petition because it became impossible for him to
achieve the release that he was seeking.
6. On July 22, 2019 Mr. Stabnow amended the petition that he filed so he could
properly identify the correct respondent in the petition and include three (3)
exhibits of evidence that he thought would be the most convincing for the
court.
7. On October lllh, 2019 an order of the U.S. District Court for the District of
Minnesota adopted the Report and Recommendation denying amended
Petition for Habeas relief pursuant to 28 USC §2241 and §2254 for failing to
exhaust state court remedies where no remedies really exist because of
Political influence over the discharge process.
8. On November 5, 2019 Mr. Stabnow appealed the decision from the district
court to the Eighth Circuit Court of appeals.
9. On February 27, 2020 The Eighth Circuit dismissed the appeal and denied a
certificate of Appealability
10.

This Appeal follows

7

VII.
16.

Facts

On April 17, 2018 Kirk Alan Fugelseth prevailed in being granted a full
discharge from the MSOP based on the Discharge standard out lined in Call v.
Gomez 535 N.W.2d 312 (Minn. 1995);

17.

In 2018, shortly after the court in the Fugelseth commitment made its
decision, the Minnesota legislature changed the criteria for release from
commitment under Statute 253B.185/253D4 and made the language of the
statute to deviate from the established constitutional standard out lined in Call
v. Gomez 535 N.W.2d 312 (Minn. 1995).

18.

This change in the law was made retroactive to Mr. Stabnow while he had
an active petition for release pending and made release nigh impossible to
achieve.

19.

Mr. Stabnow seeing that this change took place withdrew his petition for
review as he could not meet the extremely stringent guidelines of the new
standard.

20.

He filed a petition for Writ of Habeas Corpus in federal court because Mr.
Stabnow was not protected from the biasedness of the Minnesota Legislative

3 This case from Minnesota was the prevailing constitutional standard
4 See Exhibit 2 the comparison of The Statute from before its revision and after the
revision.

9

VI.
11.

Issues and Questions on Appeal

Was the District Courts and Eighth Circuit denial and dismissal of petition
for habeas relief pursuant to Title 28 USC §2241 and §2254 for failure to
exhaust state remedies proper?

12.

Was the denial of motion for Summary Judgment proper?

13.

Were the lower courts obligated to hear the petition on the Merits of the
case in light of the evidence filed with the Amended Petition?

14.

Did the District Court fail to follow Eighth Circuit and US Supreme Court
Precedent on the Exhaustion Requirement?

15.

The Petitioners Exhibits 1-3 outline the state’s predisposition to punish
MSOP detainee’s by Identifying the MSOP as a Prison1, the Legislature’s
biasedness of the population of MSOP detainees based on the fact that they
change the Law whenever there is a case that would allow for MSOP detainees
to be released, and not following the presiding Supreme Court President in
Minnesota that was reinforced by the decision in “In Re Fugelseth. „2

Mr.

Stabnow would like to know if this is proper and allowed under presiding
precedent in this great court?

See Exhibit 1
2 See Exhibits 2 and 3

8

Body in their application of the new standard to his petition for review under
the previous discharge standard.

VIII.
21.

Summary of Arguments

Mr. Stabnow argues that the district Court erred in its decision to deny
habeas relief in that: (1) Mr. Stabnow failed to exhaust his state court
remedies; (2) That Mr. Stabnow was not entitled to Habeas Relief; (3) The
District Court by all appearances did not review Mr. Stabnow’s evidence that
the MSOP is in fact a Minnesota Prison that operates under a Civil code in the
Probate division of Minnesota’s Laws; and (4) The District Court erred by not
following the precedent outlined in the Eighth Circuit Court or the Supreme
Court of the United States. (5) The State of Minnesota is not allowed to punish
Civil Detainees confined to the MSOP. (6) This court should hear the Appeal
and grant a certificate of Appealability and Certiorari.

a. Mr. Stabnow Did not fail to Exhaust his State Court Remedies where
no Remedies Exist.
22.

The remedies that the District Court directed Mr. Stabnow to exhaust5 do
not hear constitutional challenges to the statute. So the District Court erred
when It dismissed the request for habeas relief on the grounds that Mr.
Stabnow did not exhaust his State Court Remedies. This court has consistently

5 See Report and Recommendation that was adopted by the Honorable Paul A Magnuson

10

held the State Remedies that do not provide relief need not be exhausted.
“Failure to pursue available state remedies is not an absolute bar to appellate
consideration of habeas corpus claims.” Granberry v. Greer, 481 U.S. 129,
131, 95 L. Ed. 2d 119, 107 S. Ct. 1671 (1987). “Courts may grant habeas relief
in special circumstances, even though the petitioner did not exhaust state
remedies. Determining whether such special circumstances exist is a factual
appraisal for the trial court to decide, subject to appropriate appellate review.”
Chitwood v. Dowd 889 F.2d 781; 1989 (8th Cir). Commitment to the MSOP is
Politically charged and many of the States Politicians (including Judges) get
elected due to promises of harsher punishments of the Sex Offenders that rape
and molest children.
“Under the requirement of 28 USC § 2254 that a petitioner for federal
habeas corpus must have exhausted his remedies available in the state
courts, state prisoners whose state habeas corpus petitions have been
dismissed and who seek federal habeas corpus on the grounds of living
conditions and disciplinary measures at the state penitentiary where they
are confined need not pursue such state court remedies as injunction,
prohibition, mandamus, declaratory judgment, or relief under a state
administrative procedure act as a prerequisite to petitioning for federal
habeas corpus, where (1) it is a matter of conjecture whether the state
would have heard the prisoners' claims in any of the suggested alternative
proceedings; (2) no available procedure was indicated by the state
Supreme Court in earlier cases; and (3) no single instance, regardless of
the remedy invoked, had been referred to in which the state's courts have
granted a hearing to state prisoners on the conditions of their confinement”
Wilwording v. Swenson 30 LEd 2d 418, 404 US 249 (Head Notes).
23.

As Mr. Stabnow argued before the Eighth Circuit in his request for appeal
the remedies that the district court wants him to exhaust do not hear nor can

11

they decide Constitutional challenges to the Law. The remedies out lined in
statute are only to determine if Mr. Stabnow can be safely released to the
community and not the validity of the Commitment Law itself. “The panel
may not consider petitions for relief other than those considered by the special
review board from which the appeal is taken” quoting Minnesota Statute
253D.28 subd.3 and “For the purposes of this section, “reduction in custody”
means transfer out of a secure treatment facility, a provisional discharge, or a
discharge from commitment” quoting 253D.27 subd.l (b). The process does
not allow for review of a constitutional challenge to the statute.
b. Mr. Stabnow is Entitled to Habeas Relief as he has Been Under
Continued Punishment for a Two Year Prison Sentence Since 2007
That has Been Fully Served Because The MSOP is a Prison and not a
Mental Health Institution.
24.

Mr. Stabnow’s conditions of confinement amount to punishment and in
Youngberg v. Romeo, 457 U.S. 307,321-22, 102S. Ct. 2452,73 L. ed. 2d 28
(1982) this court said: “[pjersons who have been involuntarily committed are
entitled to more considerate treatment and Conditions of Confinement than
criminals whose conditions are designed to punish.” Mr. Stabnow’s prison
sentences are fully served and satisfied, and he asks the court can Minnesota
continue to punish him through the guise of civil commitment and does this
punishment rise to the level of Cruel and Unusual punishment since it has been
going on for 13 years?

Mr. Stabnow believes that it does because his

punishment for his crimes is supposed to be over with. Minnesota has, Mr.

12

Stabnow claims, erected a civil commitment scheme that amounts to
punishment beyond what the criminal courts have issued under valid criminal
sentences.6 Mr. Stabnow asks the Court is this proper under presiding case law
or Court precedent?

c. Did The District Court err in not Reviewing Mr. Stabnow’s Evidence
That the MSOP is in Fact a Minnesota Prison That Operates Under
Color of Civil Commitment?
25.

MR. Stabnow presented evidence from Minnesota’s laws that identity the
MSOP as a prison and not a mental institution that civil commitment is
generally associated with. Mr. Stabnow raises the question is this proper under
Court precedent in SYP statutes? This Court up held the Kansas SVP Law
because it committed individuals to a setting that was similarly arranged to
other Mentally Ill individuals see Kansas v. Hendricks 521 US 346, 138 L Ed
2d 501, 117 S Ct 2072 where this court said:
“For purposes of determining whether a state statute providing for the civil
commitment of sexually violent predators violates the double jeopardy or
ex post facto provisions of the Federal Constitution, a state cannot be said
to have acted with punitive intent where the state has (1) disavowed any
punitive intent, (2) limited confinement to a small segment of particularly
dangerous individuals, (3) provided strict procedural safeguards, (4)
directed that confided persons be segregated from the general prison
population and afforded the same status as others who have been civilly
committed, (5) recommended treatment if such is possible, and (6)
permitted immediate release upon a showing that the individual is no

6 See Minn. Stat. 253 D.09 where Petitions initiate in Criminal and Penal codes of the States
Laws

13

longer dangerous or mentally impaired.”
26.

Mr. Stabnow is not afforded the same rights and status as others that are
civilly committed. Minnesota has intentionally stripped Mr. Stabnow of any
protections that would keep him from being mistreated by the officials that are
tasked with treating and safe keeping him.7 Mr. Stabnow begs this Court to
decide if this practice is proper under its well established precedent in Civil
Commitment Statutes.

d. Did The District Court Err by not Following the Precedent Outlined
in the Eighth Circuit Court or the Supreme Court of the United States
surrounding Habeas Corpus Review.
27.

Mr. Stabnow in his initial petition highlighted case law that established
that he was entitled to relief under Habeas Corpus as the district court seems to
have ignored not only evidence but also precedent that was established by this
court over a more than 100 year history. Is this allowed and proper practice in
the Judicial system? Does this give Mr. Stabnow his fair day in court to find
relief from an unconstitutional statute? Mr. Stabnow’s evidence points out that
the State of Minnesota does not commit sex offenders to a mental institution
but rather to a prison and this court in Baxstrom v. Herold 383 US 107, 15 L

7 See Minnesota Statute 626.5572 Subd. 21 where MSOP detainees are not classed as
mentally ill and receive no protections under the State’s Maltreatment Protections Law
known as §626.557 Reporting of Maltreatment of Vulnerable Adults.
8 See United States v. Comstock; Kansas v. Hendricks; Addington v Texas; Allen v Illinois
Baxstrom v Herold; Foucha v Louisiana; Minnesota ex rel. Pearson v Probate Court of
Ramsey Cty;

14

Ed 2d 620, 86 S Ct 760 said:

“the decision whether to commit that person to a hospital maintained by
the Department of Corrections or to a civil hospital is completely in the
hands of administrative officials, whereas all others civilly committed to
hospitals maintained by the Department of Corrections are committed only
after judicial proceedings have been held in which it is determined that the
person is so dangerously mentally ill that his presence in a civil hospital is
dangerous to the safety of other patients or employees, or to the
community, the statutory classification not being justifiable on the basis of
factual similarities between Dannemora and civil hospitals under the
jurisdiction of the Department of Mental Hygiene where the state
legislature had created functionally distinct institutions.”
28.

Minnesota has two separate institutions for civil commitment of
dangerous individuals one such institution is the MSOP and the other is the
Minnesota Security Hospital (MSH). The latter is for the commitment of the
Mentally Ill and Dangerous who are afforded all kinds of protections and
safeguards against being abused and mistreated by state employees, and
commitment to the MSOP is the total and exact opposite because the MSOP is
identified in the states Laws as a correctional facility.9 The MSOP is classified
under the same laws as Minnesota’s Department of Corrections so a
commitment to the MSOP is in effect another prison sentence that is under the
color of civil commitment. Mr. Stabnow asks this court if this is acceptable

9 See Minn. Stat. §351.91 Covered Correctional Service

15

T

under the practice of Civil Commitment Statutes?10

Minnesota has other

hospitals around the state that are capable of treating the dangerously mentally
ill but never utilizes these settings for sex offenders but rather sends them to a
prison institution for extended incarceration on their sentences from criminal
court under the color of Civil Commitment.

e. Is The State of Minnesota is Allowed to Change Legislation when
Someone gets out of MSOP to Counter well Established Case Law.
29.

The last question that Mr. Stabnow asks this court to address is: Can the
State’s Legislative Body change the Law’s discharge criteria in order to cause
well established case law to be voided? In Mr. Stabnow’s petition for Habeas
relief he pointed out that the legislature changed the discharge criteria after an
individual was granted a full discharge from his commitment by the
commitment acts discharge process.11 The Legislature adopted a change in the
discharge criteria that voided established case law by Minnesota Courts after a
detainee from the MSOP was granted a full discharge from his commitment.12
This change in the law was then applied to Mr. Stabnow’s then pending
petition for review of his civil commitment retroactively. From what Mr.

10 In Kansas v. Hendricks Civil Commitment of SVP was allowed because the law
committed the individual to a Hospital/Mental Health type setting; the same as other civilly
committed individuals.
11 See The exhibit 2 which has Statute 253D prior to In Re Fugelseth being decided from
2014 and after it was decided in 2018.
12 The case in question is In Re Fugelseth 907 N.W.2d 248; 2018 Minn. App.

16

Stabnow was able to gather Legislation and Case Law should work together so
that justice can be upheld in a fair and reasonable manner.
“In most cases, the result which the law requires is one that comports with
the judge's sense ofjustice. If one considers the facts and asks, "What
should the result be in this case," the answer is usually what existing
legislation and case law require. This is one of those rare cases where the
Court is persuaded that as a matter of logic and justice the Defendants
should prevail, but the requirements of the Copyright Act compel a
different result” Medallic Art Co. v Novus Mktg., Inc. 1999 U.S. Dist.
LEXIS 12605; Copy L Rep (CCH) P27,948Copy. L. Rep. (CCH)
P27,948 99 Civ. 502 (JSM) (US District court of the Second Circuit).
30.

Minnesota has a history of targeting and hating sex offenders as part of the
political agenda. Many of the state’s law makers will go on TV when a high
profile offender is being looked at for reduction in custody or discharge and
make statements like:

“We are going to fight against this monster getting

released and if necessary we will change the law so that no one will ever get
out of the MSOP.”

How can Mr. Stabnow be given a fair review of his

commitment when most of the State’s law makers are elected based on their
hatred of sex offenders? And how can he achieve release when the law makers
can just change the law to void established case law that would help him
achieve release.
f.

31.

This Court Should Hear the Appeal and Grant a Certificate of
Appealability and Certiorari.

In Rule 10 of this courts rules it is well established that the power to grant
Certiorari is within the sole discretion of the court and Mr. Stabnow hopes and

17

prays that this court will choose to hear his plea for relief from his continued
punishment. Mr. Stabnow is not a lawyer and has had to represent himself
throughout this process and has done his best to follow all of the proper
procedures and he has had wall after wall placed in front of him. The courts
did not grant a certificate of appealability because Mr. Stabnow did not argue
that one should be brought, he instead argued for summary judgment in his
petition for Writ of Habeas Corpus because the Respondent did not oppose his
claims in their response to the petition. So far as Mr. Stabnow can tell he has
presented a case that has merit and the courts have summarily denied him
review and thus denied him the right to be freed from being held by an
unconstitutional statute. Mr. Stabnow is not an expert in the law but to him
this seems to be biasedness of the courts and asks is it so? These lower courts
have effectively said to Mr. Stabnow that he has no right to not being held
under an unconstitutional law that is meant to punish him again for his crimes
that he has served a full prison sentence for.
32.

In Youngberg v. Romeo, 457 U.S. 307,321-22, 102S. Ct. 2452,73 L. ed.
2d 28 (1982) this court said: “persons who have been involuntarily committed
are entitled to more considerate treatment and Conditions of Confinement than
criminals whose conditions are designed to punish.” Mr. Stabnow does not
have millions upon millions of dollars to hire an entire legal team of lawyers
that will fight to protect his rights and is faced with contending with the

18

Attorney General’s Office that has an unlimited amount of resources upholding
the law. The way that Mr. Stabnow is disparaged in his commitment is only
meant to deny him meaningful access to the courts. He has access to a law
computer but no help with formatting his briefs, fine tuning his arguments, nor
how to best present his case before the court so that he is heard.
33.

In Seling v. Young, 531 U.S. 250, 265, 121 S. Ct 727, 148 L. Ed. 2d 734
(2001); The Supreme Court cited the 14th Amendment of the constitution
saying: “The due process guarantee of the Federal Constitution's Fourteenth
Amendment requires that the conditions and duration of the civil confinement
of a sexually violent predator under a state's statute bear some reasonable
relation to the purpose for which persons are committed under the statute ”.
Minnesota’s actions in how they change the law deny what this court has
outlined as proper and just in a state’s Civil Commitment Statute. When the
law is changed how can the commitment continue to bear some reasonable
relation to the purpose for which persons are committed. Mr. Stabnow is not
sure how is commitment 13 years later with no observable behaviors that relate
to his initial commitment is still reasonably related to his initial commitment.
Is this Constitutional according to the courts previous rulings on sex offender
civil commitment laws?

34.

And in Weaver v. Graham, 450 U.S. 24, 29, 67 L. Ed. 2d 17, 101 S. Ct.
960 (1981) “Ex Post Facto Clause was meant to prevent arbitrary and

19

potentially vindictive legislationIs Minnesota’s law Arbitrary and vindictive
legislation?

Mr. Stabnow seeks certiorari to the supreme court humbly

requesting that this great court of the United States decide the issues raised in
this petition and determine if the law in Minnesota as it is currently applied to
Mr. Stabnow constitutional.
IX.
35.

Conclusion

For all of the above reason Mr. Stabnow believes that his Petition for Writ
of Certiorari should be granted by this court and his appeal heard and the
issues decided by this court.

36.

This Petition for Writ of Certiorari for appeal is filed by placing it in the
designated outgoing mail box on Monday May 18, 2020.

37.

I Robert L. Stabnow declare that all of the foregoing statements are true
and correct under penalty of perjury pursuant to Title 28 U.S.C. § 1746.

Robert L. Stabnow
Appearing Pro Se
1111 HWY 73
Moose Lake MN 55767

20

